Nos. 19-715, 19-760
IN THE

Supreme Court of the United States
___________

DONALD J. TRUMP, ET AL., Petitioners,
v.
MAZARS USA, LLP, ET AL., Respondents.
___________
DONALD J. TRUMP, ET AL., Petitioners,
v.
DEUTSCHE BANK AG, ET AL., Respondents.
___________

On Writs of Certiorari to the United States
Courts of Appeals for the District of Columbia
and Second Circuits
___________

BRIEF OF CONSTITUTIONAL ACCOUNTABILITY
CENTER AS AMICUS CURIAE IN
SUPPORT OF RESPONDENTS
___________

March 4, 2020

ELIZABETH B. WYDRA
BRIANNE J. GOROD*
BRIAN R. FRAZELLE
ASHWIN P. PHATAK
CONSTITUTIONAL
ACCOUNTABILITY CENTER
1200 18th Street NW, Suite 501
Washington, D.C. 20036
(202) 296-6889
brianne@theusconstitution.org
* Counsel of Record

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES .................................

ii

INTEREST OF AMICUS CURIAE ......................

1

INTRODUCTION .................................................

1

ARGUMENT .........................................................

5

I.

Legislative Investigations Have a Long
History, Both in the British Parliament
and in Early American Congresses ............

5

II. This Court Has Consistently Affirmed
That Congress’s Power to Investigate Is
Coextensive With Its Power to Legislate ...

12

III. The Committees’ Requests For
Documents In These Cases Fall Well
Within Congress’s Investigatory Powers....

16

CONCLUSION .....................................................

27

(i)

ii
TABLE OF AUTHORITIES
Cases

Page(s)

Anderson v. Dunn,
19 U.S. (6 Wheat.) 204 (1821) ................

11

Barenblatt v. United States,
360 U.S. 109 (1959) .................... 1, 4, 16, 18, 20
Clinton v. Jones,
520 U.S. 681 (1997) ................................

26

Eastland v. U.S. Servicemen’s Fund,
421 U.S. 491 (1975) ....................... 12, 15, 17, 20
Endicott Johnson Corp. v. Perkins,
317 U.S. 501 (1943) ........................... 4, 5, 16, 20
Hutcheson v. United States,
369 U.S. 599 (1962) ................................

21

In re the Application of U.S. Senate Permanent Subcomm. on Investigations,
655 F.2d 1232 (D.C. Cir. 1981) ..............

12

McGrain v. Daugherty,
273 U.S. 135 (1927) ............... 3, 8, 11, 12, 13, 21
McPhaul v. United States,
364 U.S. 372 (1960) .................... 4, 5, 16, 20, 23
Nixon v. Adm’r of Gen. Servs.,
433 U.S. 425 (1977) ................................

16

Nixon v. Fitzgerald,
457 U.S. 731 (1982) ................................

26

People ex rel. McDonald v. Keeler,
99 N.Y. 463 (1885)..................................

21

iii
TABLE OF AUTHORITIES – cont’d
Page(s)
Powell v. McCormack,
395 U.S. 486 (1969) ................................
24
Quinn v. United States,
349 U.S. 155 (1955) ............................ 14, 16, 22
Reed v. Cty. Comm’rs of Delaware Cty., Pa,
277 U.S. 376 (1928) ................................

12

Senate Permanent Subcomm. v. Ferrer,
199 F. Supp. 3d 125 (D.D.C. 2016) ........

12

Senate Permanent Subcomm. v. Ferrer,
856 F.3d 1080 (D.C. Cir. 2017) ..............

12

Senate Select Comm. on Presidential Campaign Activities v. Nixon,
498 F.2d 725 (D.C. Cir. 1974) (en banc)

25

Sinclair v. United States,
279 U.S. 263 (1929) ............................ 13, 14, 21
U.S. Term Limits, Inc. v. Thornton,
514 U.S. 779 (1995) ................................

24

Watkins v. United States,
354 U.S. 178 (1957) ................................ passim

Statutes and Legislative Materials
2 U.S.C. § 192 ..........................................

14

3 Annals of Cong. (1792) .........................

7, 8

4 Cong. Deb. (1827) .................................

10

10 Annals of Cong. (1800) .......................

9

iv
TABLE OF AUTHORITIES – cont’d
Page(s)
165 Cong. Rec. (daily ed. Mar. 13,
2019) .....................................................
19
165 Cong. Rec. (daily ed. May 8, 2019)...

19

Cong. Globe, 36th Cong., 1st Sess.
(1860) .................................................. 10, 11, 12
H.R. 1, 116th Cong. (2019) ......................

18, 20

H.R. 681, 116th Cong. (2019) ..................

18

H.R. 706, 116th Cong. (2019) ..................

18

H.R. 745, 116th Cong. (2019) ..................

18

H.R. 2514, 116th Cong. (2019) ................

20

H.R. Rep. No. 502, 22d Cong. 1st Sess., Ser.
No. 228 ..................................................

10

U.S. Const. art. II, § 3 .............................

23

Books, Articles, and Other Authorities
James M. Landis, Constitutional Limitations on the Congressional Power of Investigation, 40 Harv. L. Rev. 153
(1926) .................................................. 5, 6, 9, 10
Letter from Laurence H. Silberman, Deputy Att’y Gen. to Richard T. Burress
(Aug. 28, 1974) .......................................

24

Letter from President Washington to
Henry Knox (April 4, 1792), in XXXII
Writings of Washington .........................

9

v
TABLE OF AUTHORITIES – cont’d
Page(s)
C.S. Potts, Power of Legislative Bodies To
Punish for Contempt, 74 U. Pa. L. Rev.
691 (1926) ............................................... 6, 7, 11
Press Release, House Comm. on Oversight
& Reform, Chairman Cummings Issues
Statement on H.R. 1 (Jan. 4, 2019) .......

18

William Patrick Walsh, The Defeat of Major General Arthur St. Clair, November 4,
1791: A Study of the Nation’s Response
1791-1793 (February 1977) (unpublished
Ph.D. dissertation, Loyola University of
Chicago) ..................................................

8, 9

1
INTEREST OF AMICUS CURIAE1
Amicus Constitutional Accountability Center
(CAC) is a think tank, public interest law firm, and action center dedicated to fulfilling the progressive promise of our Constitution’s text and history. CAC works
in our courts, through our government, and with legal
scholars to improve understanding of the Constitution
and preserve the rights, freedoms, and structural safeguards that our nation’s charter guarantees. CAC accordingly has a strong interest in this case and in the
scope of Congress’s investigative powers.
INTRODUCTION
This Court has long recognized that “[t]he power of
the Congress to conduct investigations is inherent in
the legislative process,” and “[t]hat power is broad.”
Watkins v. United States, 354 U.S. 178, 187 (1957). Indeed, it “is as penetrating and far-reaching as the potential power to enact and appropriate under the Constitution.” Barenblatt v. United States, 360 U.S. 109,
111 (1959). Exercising that power, the House Committee on Oversight and Reform (“Oversight Committee”)
subpoenaed certain documents from Mazars USA,
LLP (“Mazars”) related to President Trump’s and his
businesses’ finances from 2011 through the present.
The Committee did so as part of its investigation regarding “Executive Branch ethics and conflicts of interest, Presidential financial disclosures, federal-lease
The parties have consented to the filing of this brief, and
their letters of consent have been filed with the Clerk. Under
Rule 37.6 of the Rules of this Court, amicus states that no counsel
for a party authored this brief in whole or in part, and no counsel
or party made a monetary contribution intended to fund the preparation or submission of this brief. No person other than amicus
or its counsel made a monetary contribution to its preparation or
submission.
1

2
management, and possible violations of the Emoluments Clauses . . . to determine the adequacy of existing laws and perform related agency oversight.”
Resps. Br. 29.
Meanwhile, two other House committees, the Committee on Financial Services (“Financial Services Committee”) and the Permanent Select Committee on Intelligence (“Intelligence Committee”), subpoenaed certain financial documents from Deutsche Bank AG and
Capital One Financial Corporation (“Capital One”) related to President Trump’s, his family’s, and his businesses’ finances. The Financial Services Committee
did so as part of its “industry-wide investigation into
financial institutions’ compliance with banking laws,
including the Bank Secrecy Act, to determine whether
current law and banking practices adequately guard
against foreign money laundering and high-risk
loans.” Id. at 17-18. Specifically, the Committee understood that “public reports have raised significant
questions about Deutsche Bank’s and Capital One’s
banking practices—and given that both institutions
host accounts associated with President Trump—the
Committee’s industry-wide investigations seek information about those accounts.” Id. at 20. The Intelligence Committee, in turn, subpoenaed financial documents as part of its investigation into “whether foreign
actors have financial leverage over President Trump,
whether legislative reforms are necessary to address
these risks, and whether our Nation’s intelligence
agencies have the resources and authorities needed to
combat such threats.” Id. at 25.
Petitioners sued to block Mazars, Deutsche Bank,
and Capital One from complying with these subpoenas, arguing that Congress has no legitimate legislative basis for requesting these documents. But the respective Committees’ legitimate legislative bases are

3
plain: these documents would aid the Oversight Committee’s determination about whether and how to legislate with respect to disclosure and conflict-of-interest
laws; they would aid the Financial Services Committee’s investigation into legislative fixes to combat
money laundering; and they would aid the Intelligence
Committee’s investigation into legislation that could
stymie foreign influence over candidates and foreign
interference in our elections and political process. Petitioners’ arguments to the contrary are at odds with
decades of this Court’s precedents and would, if accepted, significantly cabin the scope of Congress’s authority to investigate, thereby undermining Congress’s ability to fulfill its institutional role in our system of government.
Significantly, the practice of legislative investigation predates the birth of the United States, and that
power was exercised by Congress from the beginning
of the Republic. As early as 1792, Congress investigated a military defeat by “send[ing] for necessary persons, papers and records” from the Washington Administration, and James Madison and other Framers
of the Constitution voted in favor of this inquiry.
McGrain v. Daugherty, 273 U.S. 135, 161 (1927). That
investigation was only the first of many other congressional investigations that have followed in the years
since.
Consistent with this long history, this Court has repeatedly affirmed the existence of Congress’s power to
investigate and reiterated that the scope of that power
is co-extensive with the scope of Congress’s power to
legislate. As this Court has explained, Congress’s
power to investigate is “broad,” encompassing “inquiries concerning the administration of existing laws as
well as proposed or possibly needed statutes” and including “surveys of defects in our social, economic or

4
political system for the purpose of enabling the Congress to remedy them.” Watkins, 354 U.S. at 187. In
discussing the breadth of Congress’s investigatory
power, this Court has made clear that the judiciary
should not second-guess the legislature’s judgment as
to what investigations will facilitate Congress’s exercise of its legislative power. Thus, courts must uphold
a congressional request for records so long as it is not
“plainly incompetent or irrelevant to any lawful purpose [of Congress] in the discharge of [its] duties.”
McPhaul v. United States, 364 U.S. 372, 381 (1960)
(quoting Endicott Johnson Corp. v. Perkins, 317 U.S.
501, 509 (1943)).
Applying this standard, the courts below correctly
held that the Committees’ requests are valid. To start,
the Oversight Committee’s request for financial documents from Mazars could produce information that
would inform Congress’s consideration of legislation
that would strengthen financial disclosure laws and
impose new restrictions on presidential conflicts of interests. In fact, Congress is right now considering numerous pieces of legislation that would do just that.
Even though Congress need not point to proposed legislation to justify an investigation so long as the investigation is consistent with Congress’s “potential power
to enact and appropriate under the Constitution,” Barenblatt, 360 U.S. at 111 (emphasis added), the existence of such proposed legislation underscores the legitimacy of Congress’s request for these documents.
Likewise, the Financial Services Committee’s requests for financial documents could produce information that would inform Congress’s consideration of
legislation that would strengthen laws that regulate
lending practices of financial institutions and that prevent the use of shell companies. And the Intelligence
Committee’s request for financial documents could aid

5
its consideration of legislation that would limit foreign
influence in our political process, including financial
entanglements of the President. In fact, Congress is
currently considering numerous pieces of legislation
that would do just these things.
In short, an investigation exceeds Congress’s powers only when it is “plainly incompetent or irrelevant
to any lawful purpose [of Congress] in the discharge of
[its] duties.” McPhaul, 364 U.S. at 381 (quoting Endicott Johnson Corp., 317 U.S. at 509). Petitioners
have not made—and cannot make—that showing here.
ARGUMENT
I. Legislative Investigations Have a Long History, Both in the British Parliament and in
Early American Congresses.
The practice of legislative oversight predates the
birth of the United States, with “roots [that] lie deep
in the British Parliament.” James M. Landis, Constitutional Limitations on the Congressional Power of Investigation, 40 Harv. L. Rev. 153, 159 (1926). In the
1680s, for example, the British Parliament investigated issues as diverse as the conduct of the army in
“sending Relief” into Ireland during war, “Miscarriage
in the Victualing of the Navy,” and the imposition of
martial law by a commissioner of the East India Company. Id. at 162 (internal citation and quotation
marks omitted). These investigations were premised
on the idea that Parliament could not properly legislate if it could not gather information relevant to the
topics on which it wanted to legislate. Thus, for instance, a February 17, 1728, entry in the Commons’
Journal described a parliamentary committee’s investigation of bankruptcy laws as follows:
Ordered, That the Committee, appointed to inspect what Laws are expired, or near expiring,

6
and to report their Opinion to the House, which
of them are fit to be revived, or continued, and
who are instructed to inspect the Laws related
to Bankrupts, and consider what Alterations
are proper to be made therein, have Power to
send for Persons, Papers, and Records, with respect to that Instruction.
Id. at 163 (emphasis added) (internal citation omitted).
This early British practice of legislative investigation was replicated by American colonial legislatures.
“The colonial assemblies, like the House of Commons,
very early assumed, usually without question, the
right to investigate the conduct of the other departments of the government and also other matters of
general concern brought to their attention.” C.S.
Potts, Power of Legislative Bodies To Punish for Contempt, 74 U. Pa. L. Rev. 691, 708 (1926). For example,
in 1722, the Massachusetts House of Representatives
declared that it was “not only their Privilege but Duty
to demand of any Officer in the pay and service of this
Government an account of his Management while in
the Public Imploy.” Id. (internal citation omitted). In
exercising that duty, the House called before it two
military officers to question them about their “failure
to carry out certain offensive operations ordered by the
[H]ouse at a previous session,” over the objection of the
Governor. Id. Similarly, the Pennsylvania Assembly
had “a standing committee to audit and settle the accounts of the treasurer and of the collectors of public
revenues,” id. at 709, which had the “full Power and
Authority to send for Persons, Papers and Records by
the Sergeant at Arms of this House,” id. (internal citation omitted).
After the nation’s Founding, early state legislatures also understood themselves to have the power to
investigate, and even to enforce subpoenas against

7
witnesses. For example, in 1824, the New York House
of Representatives appointed a special committee to
investigate corruption at the Chemical Bank and the
handling of its charter. In connection with this investigation, the committee required a witness to appear
before the committee and adopted the following resolution when he refused:
Resolved, That there was no sufficient ground
for his refusal to appear before the committee,
and testify; that he was guilty of a misdemeanor and contempt of the House; that the
sergeant-at-arms deliver him to the keeper of
the jail of the county of Albany; that he be imprisoned until further order of the House, and
that the Speaker issue his warrant accordingly.
Id. at 718 (internal citation omitted).
The United States Congress also demonstrated
early in the Republic’s history that it viewed its authority to investigate broadly. As the Supreme Court
would later recount, the first Congresses used compulsory process to investigate “suspected corruption or
mismanagement of government officials.” Watkins,
354 U.S. at 192. For instance, the House created a
special committee in March 1792 to inquire into a significant military defeat. Records of the debate in the
House show that a majority of Members believed that
Congress should establish a select committee to investigate this matter itself, rather than direct the President to investigate. For example, Representative
Thomas Fitzsimons believed it “out of order to request
the President . . . to institute . . . a Court of Inquiry,”
and instead argued that a committee was better suited
“to inquire relative to such objects as came properly
under the cognizance of this House, particularly respecting the expenditures of public money.” 3 Annals
of Cong. 492 (1792).
Similarly, Representative

8
Abraham Baldwin “was convinced the House could not
proceed but by a committee of their own,” which
“would be able to throw more light on the subject, and
then the House would be able to determine how to proceed.” Id. Thus, the House rejected a proposal directing the President to carry out the investigation, and
instead passed, 44-10, a resolution creating its own investigative committee:
Resolved, That a committee be appointed to inquire into the causes of the failure of the late
expedition under Major General St. Clair; and
that the said committee be empowered to call
for such persons, papers, and records, as may
be necessary to assist their inquiries.
Id. at 493. Notably, “Mr. Madison, who had taken an
important part in framing the Constitution only five
years before, and four of his associates in that work,
were members of the House of Representatives at the
time, and all voted [in favor of] the inquiry.” McGrain,
273 U.S. at 161 (citing 3 Annals of Cong. 494 (1792)).
Historical evidence suggests that President Washington cooperated fully with this investigation.2
2 President Washington’s Cabinet agreed that the committee
was authorized to make such inquiries, and advised the President
that he “ought to comply with the requests of Congress although
he had the right to refuse to communicate any papers that would
tend to injure the public good.” William Patrick Walsh, The Defeat of Major General Arthur St. Clair, November 4, 1791: A Study
of the Nation’s Response 1791-1793, at 58-59 (Feb. 1977) (unpublished Ph.D. dissertation, Loyola University of Chicago),
available at https://ecommons.luc.edu/cgi/viewcontent.cgi?article=2772&context=luc_diss. On April 4, 1792, Congress passed a
bill requesting that the President “cause the proper officers” to
produce “such papers of a public nature” as may be necessary for
the investigation, 3 Annals of Cong. 536 (1792), and the Washington Administration complied, turning over all relevant documents because none were found to prejudice the public good,

9
Numerous similar congressional investigations
took place over the succeeding years. In 1800, a select
committee was formed to investigate the circumstances of the Treasury Secretary’s resignation. 10
Annals of Cong. 787-88 (1800). Representative Roger
Griswold believed such an investigation was important because if there is an investigation “on the retirement of every Secretary of the Treasury from office” about “his official conduct, it will operate as a general stimulus to the faithful discharge of duty.” Id. at
788. The committee was directed “to examine into the
state of the Treasury, the mode of conducting business
therein, the expenditures, of the public money, and to
report such facts and statements as will conduce to a
full and satisfactory understanding of the state of the
Treasury.” Id. at 796-97.
Early congressional committees also began investigations concerning “the enactment of new statutes or
the administration of existing laws.” Watkins, 354
U.S. at 192-93. For instance, in 1827, the House Committee on Manufactures initiated an investigation to
consider a revision of the tariff laws, and sought the
power to send for persons and papers in aid of that investigation. This proposal generated substantial debate. Although some members of Congress thought
“that the only cases in which the House has a right to
send for persons and papers, are those of impeachment, and of contested elections,” Landis, supra, at
178 n.102 (internal citation omitted), other Members
believed that where Congress is considering a measure
“deeply affecting the interest of every man in the
United States,” Congress may “compel the attendance
of witnesses who can give . . . practical information
Walsh, supra, at 59 (citing Letter from President Washington to
Henry Knox (Apr. 4, 1792), in XXXII Writings of Washington 15).

10
upon the subject,” id. at 178 n.103 (internal citation
omitted). In the end, Congress voted to grant the committee subpoena power. 4 Cong. Deb. 861 (1827).
Some early investigations focused specifically on
the President and his Cabinet. For example, in 1832,
the House created a committee to discover “whether an
attempt was made by the late Secretary of War, John
H. Eaton, fraudulently to give to Samuel Houston—a
contract—and that the said committee be further instructed to inquire whether the President of the United
States had any knowledge of such attempted fraud, and
whether he disapproved of the same; and that the committee have power to send for persons and papers.”
Landis, supra, at 179 (quoting H.R. Rep. No. 502, 22d
Cong. 1st Sess., Ser. No. 228) (emphasis added). Later,
in 1860, Congress created a special committee to determine whether “any person connected with the present Executive Department of this Government,”
Cong. Globe, 36th Cong., 1st Sess. 1017-18 (1860), improperly attempted to influence legislation in the
House “by any promise, offer, or intimation of employment, patronage, office, favors, or rewards, under the
Government, or under any department, officer, or servant thereof, to be conferred or withheld in consideration of any vote given,” id. at 1018. The committee had
the “power to send for persons and papers, examine
witnesses, and leave to report at any time, by bill or
otherwise.” Id.
Finally, early Congresses assumed that the individuals who could be held in contempt for refusing to
cooperate with investigations were not limited to
members of Congress. For example, in 1795, Robert
Randall was accused of attempting to bribe three
members of the House of Representatives, and was
brought before the House, which overwhelmingly approved a resolution finding him guilty of attempting to

11
corrupt the integrity of Members. The resolution ordered Randall to be “brought to the bar, reprimanded
by the Speaker, and committed to the custody of the
Sergeant-at-Arms until further order of this House.”
Potts, supra, at 719-20 (internal citation omitted).
This case was significant because there was “no division of opinion among the members present, several of
whom had been members of the Constitutional Convention, as to the power of the house to punish a nonmember for such an offense.” Id. at 720.3
Similarly, in 1859, a committee created to investigate the raid on Harper’s Ferry attempted to subpoena
as a witness Thaddeus Hyatt, and when he refused to
appear, the Senate voted on a resolution directing that
Hyatt be imprisoned in the House until he was willing
to testify. McGrain, 273 U.S. at 161-62. The resolution overwhelmingly passed, with numerous Senators
speaking in favor of the Senate’s power to subpoena
witnesses as part of an investigation. Senator William
P. Fessenden noted that the subpoena power “has been
exercised by Parliament, and by all legislative bodies
down to the present day without dispute,” and that
“the power to inquire into subjects upon which [legislatures] are disposed to legislate” should not be “lost”
to the Senate. Cong. Globe, 36th Cong., 1st Sess. 1102
(1860). He believed that Congress’s power included
the authority “to compel [witnesses] to come before us”
where the witness “will not give [information] to us.”
Id. Likewise, Senator John J. Crittenden argued that
the Senate has “the power of instituting an inquiry,”
and that it “ha[s] a right, in consequence of it, a
This congressional power to punish for contempt was approved by an early Supreme Court decision, Anderson v. Dunn,
19 U.S. (6 Wheat.) 204 (1821), in which the Court upheld the
Speaker’s warrant for the arrest of an individual who attempted
to bribe a Member of the House. Id. at 224-35.
3

12
necessary incidental power, to summon witnesses, if
witnesses are necessary.” Id. at 1105.
In short, the power to investigate, and to subpoena
relevant witnesses and documents, has been treated
as a core congressional power since the early days of
the Republic. Since then, Congress has used its subpoena power to investigate a broad range of matters,
including the “means used to influence the nomination
of candidates for the Senate,” Reed v. Cty. Comm’rs of
Delaware Cty., Pa, 277 U.S. 376, 386 (1928), alleged
“interference with the loyalty, discipline, or morale of
the Armed Services,” Eastland v. U.S. Servicemen’s
Fund, 421 U.S. 491, 500 (1975), the problem of “mob
violence and organized crime,” In re the Application of
U.S. Senate Permanent Subcomm. on Investigations,
655 F.2d 1232, 1233 (D.C. Cir. 1981), and the prevention of “sex trafficking, on the Internet,” Senate Permanent Subcomm. v. Ferrer, 199 F. Supp. 3d 125, 128
(D.D.C. 2016), vacated as moot, 856 F.3d 1080 (D.C.
Cir. 2017). As the next Section discusses, the Supreme
Court has repeatedly recognized that the congressional power to investigate is as broad as this history
suggests.
II. This Court Has Consistently Affirmed That
Congress’s Power to Investigate Is Coextensive With Its Power to Legislate.
Consistent with this long history, this Court has
recognized that Congress’s power to investigate is inherent in its power to legislate—and that this power is
broad. In McGrain v. Daugherty, the Court considered
whether the Senate, in the course of an investigation
regarding the Department of Justice, could compel a
witness—in that case, the Attorney General’s
brother—to appear before a Senate committee to give
testimony. 273 U.S. at 150-52. The Court held that
“the Senate—or the House of Representatives, both

13
being on the same plane in this regard—has power,
through its own process, to compel a private individual
to appear before it or one of its committees and give
testimony needed to enable it efficiently to exercise a
legislative function belonging to it under the Constitution.” Id. at 154. As the Court explained, the power to
compel witnesses to testify is an essential aspect of the
power to legislate:
A legislative body cannot legislate wisely or effectively in the absence of information respecting the conditions which the legislation is intended to affect or change; and where the legislative body does not itself possess the requisite
information—which not infrequently is true—
recourse must be had to others who do possess
it.
Id. at 175.
Applying these principles, the Court then asked
whether the particular subpoena at issue was designed “to obtain information in aid of the legislative
function.” Id. at 176. The Court concluded that it was:
“the subject to be investigated was the administration
of the Department of Justice—whether its functions
were being properly discharged or were being neglected or misdirected.” Id. at 177. As the Court explained: “Plainly the subject was one on which legislation could be had and would be materially aided by the
information which the investigation was calculated to
elicit,” id., especially in view of the fact that the powers
of the Department of Justice and the Attorney General
were subject to legislation. Id. at 178.
Two years later, the Court reiterated that “the
power of inquiry is an essential and appropriate auxiliary to the legislative function.” Sinclair v. United
States, 279 U.S. 263, 291 (1929). It thus affirmed an

14
individual’s conviction for contempt of Congress under
2 U.S.C. § 192, which provides for the criminal punishment of witnesses who refuse to answer questions or
provide documents pertinent to a congressional investigation. Rejecting the defendant’s claim that the investigation at issue was not related to legislation, the
Court stated that because Congress can legislate “respecting the naval oil reserves” and “other public lands
and property of the United States,” a Senate committee “undoubtedly” had the power “to investigate and
report what had been and was being done by executive
departments under the Leasing Act, the Naval Oil Reserve Act, and the President’s order in respect of the
reserves and to make any other inquiry concerning the
public domain.” Sinclair, 279 U.S. at 294.
The Court again outlined a broad view of Congress’s power to investigate in its 1955 decision in another case involving 2 U.S.C. § 192. As in McGrain,
the Court in Quinn v. United States, 349 U.S. 155
(1955), described the breadth of Congress’s investigatory powers:
There can be no doubt as to the power of Congress, by itself or through its committees, to investigate matters and conditions relating to
contemplated legislation. This power, deeply
rooted in American and English institutions, is
indeed co-extensive with the power to legislate.
Without the power to investigate—including of
course the authority to compel testimony, either through its own processes or through judicial trial—Congress could be seriously handicapped in its efforts to exercise its constitutional function wisely and effectively.
Id. at 160-61. Similarly, in Watkins v. United States,
the Court made clear yet again that “an investigation
is part of lawmaking,” 354 U.S. at 197, and once more

15
described the congressional investigatory power expansively:
The power of the Congress to conduct investigations is inherent in the legislative process.
That power is broad. It encompasses inquiries
concerning the administration of existing laws
as well as proposed or possibly needed statutes.
It includes surveys of defects in our social, economic or political system for the purpose of enabling the Congress to remedy them. It comprehends probes into departments of the Federal Government to expose corruption, inefficiency or waste.
Id. at 187. And again, in Eastland v. U.S. Servicemen’s
Fund, the Court recognized that “the power to investigate is inherent in the power to make laws,” and that
the “[i]ssuance of subpoenas . . . has long been held to
be a legitimate use by Congress of its power to investigate.” 421 U.S. at 504. Indeed, the Court ruled, the
“power of inquiry” is such “an integral part of the legislative process” that the Speech or Debate Clause provides complete immunity for Congressmembers’ decision to issue a subpoena. Id. at 505, 507. “The issuance of a subpoena pursuant to an authorized investigation,” as the Court explained, is “an indispensable
ingredient of lawmaking.” Id. at 505.
Finally, the Court relied on “Congress’ broad investigative power” in upholding a statute that required
the preservation of presidential materials from the
Nixon Administration. Among the “substantial public
interests that led Congress to seek to preserve [these]
materials” was “Congress’ need to understand how
[our] political processes had in fact operated” during
“the events leading to [Nixon]’s resignation . . . in order to gauge the necessity for remedial legislation.”

16
Nixon v. Adm’r of Gen. Servs., 433 U.S. 425, 453
(1977).
In sum, because the scope of its investigatory power
is “co-extensive with the power to legislate,” Quinn,
349 U.S. at 160, “[t]he power of inquiry has been employed by Congress throughout our history, over the
whole range of the national interests concerning which
Congress might legislate or decide upon due investigation not to legislate,” Barenblatt, 360 U.S. at 111. The
subpoenas at issue here are plainly valid exercises of
that power, as the next Section discusses.
III. The Committees’ Requests For Documents
In These Cases Fall Well Within Congress’s
Investigatory Powers.
As described above, Congress’s power to investigate
is “broad,” encompassing “inquiries concerning the administration of existing laws as well as proposed or
possibly needed statutes.” Watkins, 354 U.S. at 187.
This Court therefore must uphold the congressional
subpoenas so long as they are not “plainly incompetent
or irrelevant to any lawful purpose [of Congress] in the
discharge of [its] duties.” McPhaul, 364 U.S. at 381
(quoting Endicott Johnson Corp., 317 U.S. at 509).
1. The Oversight Committee’s investigation—and
the related subpoena—plainly satisfy this test. After
hearing substantial evidence that President Trump
may not have complied with certain financial disclosure requirements, and that he may have conflicts of
interest that could affect his ability to make impartial
decisions as President, the Committee subpoenaed
Mazars for financial records and other documents relating to President Trump and his businesses. In his
memorandum to the Committee, Chairman Elijah
Cummings explained that the Committee was subpoenaing documents to investigate, among other things,

17
“whether [President Trump] has undisclosed conflicts
of interest that may impair his ability to make impartial policy decisions” and “whether [he] has accurately
reported his finances to the Office of Government Ethics and other federal entities.” Pet. App. 9a (internal
citation omitted).
These subjects of investigation easily fall within
Congress’s power to legislate—they are inquiries into
the “administration of existing laws as well as proposed or possibly needed statutes,” Watkins, 354 U.S.
at 187. This Court has explained that Congress’s investigatory power includes “surveys of defects in our
social, economic or political system for the purpose of
enabling the Congress to remedy them,” including defects like “corruption, inefficiency or waste.” Id. Congress’s investigation into the President’s compliance
with disclosure requirements in the Ethics in Government Act of 1978 relates to the administration of that
statute, as well as to Congress’s deliberations about
whether the statute should be strengthened. As the
court below recognized, Congress could enact legislation that requires Presidents “to file reports more frequently, to include information covering a longer period of time, or to provide new kinds of information
such as past financial dealings with foreign businesses
or current liabilities of closely held companies.” Pet.
App. 44a.
Importantly, Congress need not point to any proposed legislation to justify an investigation. “The very
nature of the investigative function—like any research—is that it takes the searchers up some ‘blind
alleys’ and into nonproductive enterprises. To be a
valid legislative inquiry there need be no predictable
end result.” Eastland, 421 U.S. at 509. Congress’s investigatory power “is as penetrating and far-reaching
as the potential power to enact and appropriate under

18
the Constitution.” Barenblatt, 360 U.S. at 111 (emphasis added).
Nonetheless, the existence here of specific pieces of
legislation that Congress is considering underscores
the validity of this investigation. For instance, H.R. 1
would require the President to file a new financial disclosure report within 30 days of taking office and
would prohibit the President from contracting with the
United States government. See Press Release, House
Comm. on Oversight & Reform, Chairman Cummings
Issues Statement on H.R. 1 (Jan. 4, 2019), https://tinyurl.com/CummingsHR1PressRelease.
Moreover,
the bill would require the President to “divest of all financial interests that pose a conflict of interest” by
converting those interests to cash or placing them in a
blind trust, or disclosing information about them. H.R.
1, 116th Cong. tit. VIII, § 8012 (2019). The House is
also considering a bill to strengthen the Office of Government Ethics by making its Director removable only
for cause, see H.R. 745, 116th Cong. § 3 (2019), a bill
that would prohibit the President and affiliated “significant business interest[s]” from engaging in certain
commercial transactions with the federal government,
see H.R. 706, 116th Cong. § 241(a) (2019), and a bill
that would extend anti-nepotism laws to the White
House Office and Executive Office of the President, see
H.R. 681, 116th Cong. (2019).
2. The Financial Services and Intelligence Committees’ investigations—and the subpoenas they have
issued in furtherance of those investigations—plainly
satisfy this Court’s test as well. First, the Financial
Services Committee has subpoenaed financial records
related to President Trump, his family, and his businesses from Deutsche Bank and Capital One. As
Chairwoman Maxine Waters explained, the Committee is “investigating the questionable financing

19
provided to President Trump and The Trump Organization by banks like Deutsche Bank to finance its real
estate properties.” 165 Cong. Rec. H2698 (daily ed.
Mar. 13, 2019) (statement of Rep. Waters). This investigation will aid the Committee in determining
whether and how to strengthen federal banking laws,
particularly with respect to lending practices and the
prevention of money laundering and loan fraud.
Second, the Intelligence Committee has similarly
subpoenaed financial records related to President
Trump, his family, and his businesses from Deutsche
Bank. These subpoenas further the Committee’s investigation of President Trump’s entanglements with
foreign entities following reports of decades of intersection between President Trump’s business interests
and Russia-linked entities, including at Deutsche
Bank. As Chairman Adam Schiff explained, the Committee is gathering information to decide whether and
how to “[s]trengthen legal authorities and capabilities
for our intelligence and law enforcement agencies to
better track illicit financial flows, including through
shell companies, real estate and other means; to better
identify counterintelligence risks; and to expose interference by foreign actors.” Id. at H3482 (daily ed. May
8, 2019) (statement of Rep. Schiff).
These subjects of investigation easily fall within
Congress’s power to legislate—they are inquiries into
the “administration of existing laws as well as proposed or possibly needed statutes,” Watkins, 354 U.S.
at 187. As the court below recognized, “[t]he Committees’ interests concern national security and the integrity of elections, and, more specifically, enforcement of
anti-money-laundering/counter-financing of terrorism
laws, terrorist financing, the movement of illicit funds
through the global financial system including the real
estate market, the scope of the Russian government’s

20
operations to influence the U.S. political process, and
whether the [President] was vulnerable to foreign exploitation.” J.A. 284a. These legislative interests are
hardly “plainly incompetent or irrelevant to any lawful
[legislative] purpose.” McPhaul, 364 U.S. at 381 (quoting Endicott Johnson Corp., 317 U.S. at 509).
Again, while Congress need not point to any proposed legislation to justify an investigation, the existence here of specific pieces of legislation that Congress
is considering underscores the validity of this investigation. The Financial Services Committee is considering legislation that would increase transparency regarding ownership of anonymous shell corporations.
See, e.g., H.R. 2514, 116th Cong. (2019) (making reforms to the Federal Bank Secrecy Act and anti-money
laundering provisions). And Congress is also considering legislation that would protect the American political system from foreign influence. See, e.g., H.R. 1,
116th Cong. (2019) (improving election security and
oversight and providing for national strategy to combat foreign interference).
3. Petitioners insist that this Court should disregard these plainly valid legislative purposes because
courts must discern a subpoena’s “primary purpose,”
and, in their view, Congress’s primary purpose with
these subpoenas is “law enforcement.” Pet’rs Br. 21.
This argument contravenes longstanding precedent of
this Court, which “make[s] clear that in determining
the legitimacy of a congressional act [courts] do not
look to the motives alleged to have prompted it.”
Eastland, 421 U.S. at 508. Said another way, “[s]o
long as Congress acts in pursuance of its constitutional
power, the Judiciary lacks authority to intervene on
the basis of the motives which spurred the exercise of
that power.” Barenblatt, 360 U.S. at 132. This Court
is “bound to presume that the action of the legislative

21
body was with a legitimate object, if it is capable of being so construed.” McGrain, 273 U.S. at 178 (quoting
People ex rel. McDonald v. Keeler, 99 N.Y. 463, 487
(1885)); see Watkins, 354 U.S. at 200 (“the motives of
committee members . . . alone would not vitiate an investigation which had been instituted by a House of
Congress if that assembly’s legislative purpose is being
served”).
To be sure, these investigations may have the potential to uncover violations of law, and some members
of Congress may have an interest in knowing whether
the President has violated the law, see Pet’rs Br. 3738, but that does not mean the investigation therefore
lacks a legitimate legislative purpose. To the contrary,
it is possible that the President has violated the law
and that Congress may wish to legislate on topics related to the President’s conflicts of interest and financial disclosures, or with regard to money laundering
and election interference. As Petitioners themselves
acknowledge, “a legislative investigation is not illegitimate because it might incidentally expose illegal conduct.” Id. at 42. Indeed, as this Court has explained,
although Congress “is without authority to compel disclosures for the purpose of aiding the prosecution of
pending suits,” its authority “to require pertinent disclosures in aid of its own constitutional power is not
abridged because the information sought to be elicited
may also be of use in such suits.” Sinclair, 279 U.S. at
295; see McGrain, 273 U.S. at 179-80 (“Nor do we think
it a valid objection to the investigation that it might
possibly disclose crime or wrongdoing on [an executive
branch official’s] part.”); Hutcheson v. United States,
369 U.S. 599, 618 (1962) (“[S]urely a congressional
committee which is engaged in a legitimate legislative
investigation need not grind to a halt . . . when crime
or wrongdoing is disclosed.” (internal citations

22
omitted)); see generally Quinn, 349 U.S. at 161 (“the
power to investigate . . . cannot be used to inquire into
private affairs unrelated to a valid legislative purpose”
(emphasis added)).
Petitioners argue that “the focus on ‘certain named
individuals’ . . . show[s] that the subpoenas have the
hallmarks of law-enforcement investigations—not legislative inquiries.” Pet’rs Br. 40 (internal citation
omitted). But the President of the United States is no
ordinary person. It makes sense that Congress would
investigate the President’s financial entanglements
when it seeks to craft financial-disclosure and conflictof-interest laws that would affect him and other Executive Branch officials. Likewise, it makes sense that
Congress would investigate the President’s finances
when it seeks to craft laws regarding foreign interference in our political system.
Relatedly, the Solicitor General says that “there is
no discernible reason why a congressional investigation into the general problem of money laundering
should focus on the President in particular.” DOJ Br.
29. He ignores, however, that the Committees’ requests for this President’s financial information was
based on, with regard to the Oversight Committee’s request, reports that the President has misreported financial information on federal disclosure documents,
and with regard to the other Committees’ requests, reports regarding the President’s relationship with both
Deutsche Bank and Russian interests, as well as allegations that shell companies were misused to purchase Trump properties. Thus, the Committees had
good reason to believe that financial information about
this President and his businesses would offer illuminating information that would guide its consideration
of remedial legislation on these issues.

23
4. In the face of all this contrary precedent, Petitioners make one final argument with regard to the
Oversight Committee’s request: they say that every potential piece of legislation that could arise from that
investigation—whether already proposed or purely hypothetical—would be unconstitutional as applied to
the President, and therefore there can be no legitimate
legislative purpose for the Committee’s investigation.
Their theory is apparently that any statutory limit on
the President’s conflicts of interest and any disclosure
requirement imposed on the President would amount
to a prerequisite to holding the Office of President that
would violate Article II, § 1, cl. 1—which delineates
the qualifications for that office—or would otherwise
interfere with the President’s ability to “take Care that
the Laws be faithfully executed,” U.S. Const. art. II,
§ 3. See Pet’rs Br. 45-52.
This argument is as astounding as it is wrong. As
an initial matter, the Supreme Court has made clear
that Congress may investigate so long as the investigation is not “plainly incompetent or irrelevant to any
lawful purpose.” McPhaul, 364 U.S. at 381 (internal
citation and quotations omitted) (emphasis added).
Here, laws governing the President’s disclosures and
conflicts of interest, like the Ethics in Government Act
of 1978, have been on the books for decades. Congressional investigation into whether to amend those laws,
or to pass new laws imposing other ethical constraints
on the President, can hardly be “plainly incompetent
or irrelevant to any lawful purpose.” And given this
long history of ethics legislation, it would be remarkable for this Court to rule that any such hypothetical
legislation is unconstitutional before it is even passed,
let alone applied to the President.
On top of that, there is no basis for Petitioners’ radical assertion that Congress cannot apply any ethics

24
legislation to the President. Indeed, Petitioners cite
no case—whether from this Court or any other—that
comes close to supporting their sweeping constitutional rule that would exempt the President from all
disclosure and conflict-of-interest laws. That is because no such case exists.4 Rather, the only source
that Petitioners cite for this proposition is a letter from
then–Deputy Attorney General Laurence H. Silberman to an Assistant to the President in 1974 which
suggests—in passing—that there might be constitutional questions that arise when applying some conflict-of-interest laws to the President. See Letter from
Laurence H. Silberman, Deputy Att’y Gen. to Richard
T. Burress 2 (Aug. 28, 1974), bit.ly/31k3rql (“[s]ome
doubt exists as to the constitutionality of applying [18
U.S.C. § 208(a)] to the President”). And even this letter—again, Petitioners’ only support—does not stand
for the proposition that all laws requiring presidents
to disclose finances or conflicts, set up a blind trust, or
otherwise arrange their financial holdings in a certain
way upon taking office are unconstitutional.
5. The Solicitor General, for his part, suggests that
congressional subpoenas pertaining to the President
“should be subject to heightened scrutiny of [their] legitimacy” compared to other congressional subpoenas.
DOJ Br. 22. Conspicuously, however, the Solicitor
General fails to cite a single precedent from this Court
The cases that Petitioners do cite do not articulate such a
rule. For instance, U.S. Term Limits, Inc. v. Thornton, 514 U.S.
779 (1995), held that states cannot limit the number of terms that
a Member can serve. Id. at 782-83. And Powell v. McCormack,
395 U.S. 486 (1969), held that Congress cannot exclude a Member
who was duly elected and met the Constitution’s eligibility requirements. Id. at 489. Neither case says anything about
whether Congress may impose conflict-of-interest restrictions or
disclosure requirements on members of Congress, let alone the
President.
4

25
or any court that even suggests, let alone holds, that a
congressional subpoena that would otherwise be valid
should be prohibited merely because the subpoena furthers an investigation pertaining to the President. To
be sure, as the Solicitor General notes, the Court in
Watkins warned that lawmakers might use investigations for “personal aggrandizement,” to “‘punish’ those
investigated,” or “to expose for the sake of exposure.”
Id. at 19 (quoting Watkins, 354 U.S. at 187, 200). But
under Watkins, courts always ask whether a congressional investigation is “related to, and in furtherance
of, a legitimate task of the Congress,” regardless of the
subject of the investigation. Watkins, 354 U.S. at 187.
And so long as it is, the investigation is permissible.
Id. at 200 (“motives alone would not vitiate an investigation which had been instituted by a House of Congress if that assembly’s legislative purpose is being
served”); id. at 187 (investigation valid unless impermissible goals are the “sole[]” purpose for the inquiry).
Watkins does not suggest that the nature of the inquiry is different if the President is the subject of the
investigation.
Lacking any precedent on point, the Solicitor General borrows a standard that the D.C. Circuit has applied to congressional subpoenas that cover official
presidential records protected by executive privilege.
DOJ Br. 23, 24, 28, 30 (citing Senate Select Comm. on
Presidential Campaign Activities v. Nixon, 498 F.2d
725, 731 (D.C. Cir. 1974) (en banc)). But that court
applied a heightened standard for those types of official records “to ensure that the President and those
upon whom he directly relies in the performance of his
duties could continue to work under a general assurance that their deliberations would remain confidential.” Senate Select Comm., 498 F.2d at 730. No court
has ever suggested that the standard that applies to

26
subpoenas for official, privileged material should apply
to all congressional subpoenas pertaining to the President—even those seeking the President’s personal financial records from a third-party accounting firm or
bank.
And, contrary to the Solicitor General’s argument,
this Court’s recognition that “[t]he President occupies
a unique position in the constitutional scheme,” Nixon
v. Fitzgerald, 457 U.S. 731, 749 (1982), and therefore
has certain immunities from litigation—like, for instance, “absolute immunity from damages liability
predicated on his official acts,” id.—provides no basis
for applying that heightened standard to all congressional subpoenas related to the President. Indeed, this
Court has carefully cabined that doctrine, refusing, for
instance, to prevent a judicial subpoena for the President’s testimony or to stay a civil trial concerning the
President’s personal conduct despite the fact that it
“may consume some of the President’s time and attention.” Clinton v. Jones, 520 U.S. 681, 708 (1997). If
the President’s immunity from judicial process cannot
prevent him from being subject to civil damages litigation—including a civil trial and compelled testimony—
while in office, it certainly provides no basis for applying a heightened standard before a third-party accounting firm or bank may comply with a congressional subpoena for the President’s non-privileged,
personal financial records.
In any event, even if some heightened standard did
apply here, the subpoenas at issue would readily satisfy it. For the reasons explained above and in the
Committees’ brief, Resps. Br. 17-36, the Committees
“clearly identified a specific legitimate legislative purpose behind each subpoena” and “clearly explained
how the information sought in each subpoena was

27
demonstrably critical to those respective purposes,”
DOJ Br. 26.
***
In sum, Petitioners’ and the Solicitor General’s arguments, if accepted, would drastically cabin the scope
of Congress’s power to investigate. Such a result
would be at odds with our nation’s rich history of congressional investigations and with decades of this
Court’s precedents affirming that Congress possesses
broad power to investigate. This Court should reject
Petitioners’ arguments and affirm the judgments below.
CONCLUSION
For the foregoing reasons, the judgments of the
courts of appeals should be affirmed.
Respectfully submitted,
ELIZABETH B. WYDRA
BRIANNE J. GOROD*
BRIAN R. FRAZELLE
ASHWIN P. PHATAK
CONSTITUTIONAL
ACCOUNTABILITY CENTER
1200 18th Street NW, Suite 501
Washington, D.C. 20036
(202) 296-6889
brianne@theusconstitution.org
Counsel for Amicus Curiae
March 4, 2020

* Counsel of Record

